         U.S. Department of Energy
         Office of Inspector General
         Office of Audits and Inspections




Audit Report
The Department of Energy's
Management of Contractor
Responsibility Determinations




OAS-M-13-07                       September 2013
                                  Department of Energy
                                    Washington, DC 20585
                                        September 4, 2013


MEMORANDUM FOR THE SENIOR PROCUREMENT EXECUTIVES FOR THE
                   DEPARTMENT OF ENERGY AND THE NATIONAL
                   NUCLEAR SECURITY ADMINISTRATION


FROM:                     Rickey R. Hass
                          Deputy Inspector General
                             for Audits and Inspections
                          Office of Inspector General

SUBJECT:                  INFORMATION: Audit Report on "The Department of Energy's
                          Management of Contractor Responsibility Determinations"

BACKGROUND

The Department of Energy (Department) is second only to the Department of Defense in contract
awards, expending approximately 90 percent of its budget through a variety of contracts and
financial assistance agreements. From January 2010 to January 2012, the Department's Office of
Headquarters Procurement Services (Headquarters Procurement) and the National Nuclear
Security Administration's (NNSA) Office of Acquisition Management in the Albuquerque
Complex (Albuquerque Procurement) awarded contracts totaling approximately $6 billion to
1,315 contractors. The President's January 2010 Memorandum for the Heads of Executive
Departments and Agencies noted that the Federal government pays more than half a trillion
dollars a year to contractors and has an important obligation to protect American taxpayer funds
and the integrity of the Federal acquisition process. Federal procurement regulations require
contractors to certify that they meet eligibility requirements. Contracting officers are required to
utilize such certifications to make responsibility determinations for procurements which exceed
the simplified acquisition threshold of $150,000.

The U.S. Government Accountability Office's April 2007 testimony on tax compliance,
Thousands of Federal Contractors Abuse the Federal Tax System, found that tens of thousands
of companies with serious tax delinquencies had Federal contracts. The Federal Acquisition
Regulation (FAR) requires that the Government limit the award of contracts to non-responsible
contractors, such as those with tax delinquencies. Because of the extent of contracting activities,
we initiated this audit to determine whether the Department had effective processes and
procedures to prevent awarding contracts to contractors with tax delinquencies and to those
deemed non-responsible.

RESULTS OF AUDIT

We determined that Headquarters Procurement and Albuquerque Procurement did have
processes and procedures in place to restrict contracts awards to entities with tax delinquencies
and those deemed non-responsible. 1 However, we identified opportunities where these processes
and procedures could be improved. Specifically, we identified instances in which required
offeror representations and certifications were either not completed or were not up-to-date at the
time of contract award. In addition, important procurement documentation used in determining a
bidder's responsibility was not always included in the official contract files, as required by
Department policies and procedures.

The problems we identified occurred, in part, because Headquarters Procurement and
Albuquerque Procurement management did not ensure that procurement personnel consistently
implemented controls designed to determine whether a contractor was responsible. In addition,
management did not always ensure that the official contract files were properly maintained. To
their credit, Headquarters Procurement and Albuquerque Procurement indicated that corrective
measures have been taken as a result of our audit. Headquarters Procurement has proposed an
automated check and balance system within the Strategic Integrated Procurement Enterprise
System (STRIPES) to ensure that documentation supporting a responsibility determination is
included in the official contract file. Additionally, Albuquerque Procurement indicated that their
Con Write system has been reprogrammed to return a fatal error when a contractor is on the
federal debt or debarred list. According to the Department's Acquisition Guide, affirmative
responsibility determinations are an important part of safeguarding agency interests by ensuring
awards are made to responsible contractors and taxpayer dollars are used in an effective manner.

                            Contractor Responsibility Determination Requirements

The FAR sets forth requirements that must be met prior to awarding contracts to prospective
contractors. Specifically, for our review of contract awards made between January 2010 and
January 2012, the FAR required prospective Government contractors to register in the Central
Contractor Registration (CCR) database. If a prospective contractor was not registered in CCR
within the time prescribed by the contracting officer, the contracting officer was required to
make the award to the next otherwise successful bidder. In addition to CCR, contractors with
awards exceeding $150,000 were also required to register in the Online Representation
Certification Application (ORCA) and maintain an annual up-to-date registration in the database.
In ORCA, as part of the responsibility matter clause (FAR Clause 52.209-5), the prospective
contractor certifies that it is not being debarred, declared ineligible for Federal contracts,
suspended, indicted on criminal/civil charges, and does not have tax delinquencies of $3,000 or
greater, among other things. The certification (now referred to as an entity's Representations &
Certifications) is legally binding between the Government and a prospective contractor and
certifies that the contractor is not misrepresenting itself and not trying to defraud the
Government.

In July 2012, the Federal Government began combining Federal procurement systems and the
Catalog of Federal Domestic Assistance into one new system. During the first phase of
transition, the System for Award Management (SAM) replaced CCR and ORCA. Thus
contractors are now required to submit the same information to SAM that was formerly required
for CCR and ORCA. In November 2012, the Excluded Parties List System functionality was
also incorporated within SAM.

1
    Attachment 1 contains a detailed breakout, by office, of the results of our audit.
                                                              2
                          Contractor Representations and Certifications

Based on our review of 413 contract awards that exceeded the $150,000 simplified acquisition
threshold, we determined that contractor representations and certifications, key factors in
determining the responsibility of a perspective contractor, were not always present in the ORCA
system. Specifically, our review of contract awards at Headquarters Procurement and
Albuquerque Procurement identified instances in which information was either not present or not
up-to-date at the time of award. In addition, we found that both procurement offices had not
always adequately maintained the official contract files.

Some entities were awarded contracts even though they had not registered in the online
certification databases, as required. In a number of other instances, contracts were awarded
before the self certification was completed. In yet other examples, Headquarters Procurement
made awards even though the offeror's certification had expired. Specifically, our review
disclosed that:

   •   Headquarters Procurement and Albuquerque Procurement had 7 contractors with 9
       contract awards totaling almost $3.6 million that had not registered in the ORCA data
       base during the time of our review;

   •   Contract awards were made to 5 contractors with 12 contracts totaling over $28 million
       by Headquarters Procurement prior to the ORCA certifications being completed; and

   •   Headquarters Procurement had 4 contractors with total contract awards of over $3 million
       that had expired ORCA certifications.

We also identified a contractor with contract awards totaling over $314 million that had affirmed
on their ORCA certifications that they had been or were presently indicted or convicted of a
criminal offense by a Federal, state or local agency. However, no due diligence follow-up
procedures were conducted by the Contracting Officer or Contract Specialist to determine if the
criminal offense adversely impacted the contractor's responsibility determination, as required by
the FAR. The FAR requires that agencies follow up if a prospective contractor provides an
affirmative response to the "responsibility matter clause." Specifically, contracting officers are
to obtain and document information that would help them determine the prospective contractor's
responsibility or refer the prospective contractor to the debarring/suspension official for a
resolution. After bringing this matter to the attention of Headquarters Procurement, the
Contracting Officer followed up with the contractor. The contractor provided written
documentation showing that a settlement in the case was reached and all matters related to its
previous disclosure had been judicially resolved.

                                      Official Contract Files

In addition, our review disclosed that Headquarters Procurement and Albuquerque Procurement
had not always sufficiently maintained official contract files. The contract files are the official
record of the actions undertaken in the contract award and provide key documentation should



                                                 3
issues arise with the contract. Specifically, we found 47 instances in which contract
correspondence files we reviewed did not contain all supporting documents required by the FAR
for determining perspective contractors' responsibility.

Both procurement offices are required to maintain contract files that support a determination of
responsibility or non-responsibility. According to Chapter 9.4 of the Department's Acquisition
Guide, documents and reports supporting a determination must be included in the contract file.
Given the requirement for prospective contractors to register in SAM (formerly CCR and
ORCA), and the importance of the information relating to contractors' Representations and
Certifications, the official contract files should reflect that the contracting officer has reviewed
this information during the responsibility determination. Also, contracting officers are required
to check the Excluded Parties List in SAM to ensure prospective vendors have not been debarred
from doing business with the Government. The Excluded Parties List provides a comprehensive
list of individuals and firms excluded by Federal agencies from receiving Federal contracts,
subcontracts and other types of assistance or benefits, both financial and nonfinancial. Searches
of the Excluded Parties List are essential to ensure that the Department is conducting business
with responsible contractors only. Despite this requirement:

   •   Nine of the files we reviewed at Headquarters Procurement for contracts totaling over
       $8 million did not contain documentation or reports supporting the Contracting Officer's
       responsibility determination.

   •   Contracting officials at Headquarters Procurement and Albuquerque Procurement could
       not demonstrate that the CCR database had been reviewed prior to awarding 10 contracts
       totaling over $11.5 million. Prior to July 2012, CCR was one of the primary databases
       for the Government to manage information on prospective contractors. Furthermore,
       unless exempt by FAR 4.1102, contractors are required to register in CCR in order to do
       business with the Government. In one instance, we found that a Headquarters
       Procurement official provided a contractor with a paper form to sign instead of
       registering in the CCR. The official stated that he assumed the contractor would follow
       through with the required online registration. However, there was no evidence of such
       actions or follow up conducted by the Department.

   •   No evidence was found that contracting officers had conducted an Excluded Parties List
       System search for 14 prospective contractors prior to the awarding of contracts totaling
       over $10 million at the 2 procurement offices.

   •   Official contract files did not contain evidence that the ORCA database had been
       searched for contractor performance issues and the responsibility matter clause in ORCA
       had been reviewed for 23 contracts totaling over $61 million at the 2 procurement offices.

                                   Implementation of Controls

These issues occurred because Headquarters Procurement and Albuquerque Procurement
management did not ensure that internal controls were consistently implemented by procurement
personnel, in accordance with the FAR and the Department's Acquisition Guide. Specifically,


                                                 4
management did not ensure that contractor representations and certifications were in place prior
to contract award. Furthermore, management did not ensure that documents supporting a
responsibility determination were maintained in the official contract file.

The Department had developed internal controls designed to ensure that awards were made to
responsible prospective contractors. In accordance with the FAR, the Department's Acquisition
Guide serves as the internal operating procedures for procurement and program personnel
involved in the acquisition process. Chapter 9 of the Department's Acquisition Guide provides
guidance to procurement personnel to determine if perspective contractors are responsible in
accordance with FAR. According to the guide, affirmative responsibility determinations are an
important part of safeguarding agency interests. Determinations ensure awards are made to
responsible contractors and taxpayer dollars are used in an effective manner. Although
procurement officials were familiar with the Department's Acquisition Guide and FAR
requirements regarding responsibility determinations, we found that management did not ensure
these requirements were consistently followed.

Further, the Department's Acquisition Guide states that all supporting documentation must be
included in the Department's official contract files. Albuquerque Procurement maintains hard
copy contract files and Headquarters Procurement utilizes STRIPES as its official system of
record to document all contract award files. However, a Headquarters Procurement official
indicated that some records were kept in personal files and not uploaded to STRIPES.
Subsequently, procurement personnel were asked to provide any information supporting a
responsibility determination; however, some officials could not provide the requested
information. Also, an official indicated that a procurement employee had left the procurement
organization and we noted that the necessary files had not been transferred into STRIPES. In
other instances, Headquarters Procurement officials added supporting documents to the official
contract file after we had requested copies of contract documentation.

                                        Contract Awards

Due to restrictions on querying Internal Revenue Service databases, we were unable to identify
any contracts awarded to contractors with tax delinquencies. However, the weaknesses we
identified regarding the implementation of internal controls place the Department at an increased
risk of awarding contracts to contractors deemed non-responsible due to possible tax
delinquencies or civil/criminal indictments against them. Also, the official contract files may not
have the necessary documentation on file should questions arise over a contract award. Given
the current economic climate and the need to ensure that taxpayers' dollars are spent prudently, it
is imperative the Department conduct due diligence and effectively manage its processes for
preventing awards to contractors deemed non-responsible.

RECOMMENDATION

Contracting officers and contracting specialists cannot review criminal/civil violation databases,
nor can they access Internal Revenue Service files due to Internal Revenue Code 6103, which
protects taxpayer confidentiality and return information. In light of this, the Department must
rely solely on the contractor self-certification disclosures for this information. Therefore, to


                                                 5
address the weaknesses we observed in the contractor self-certification process, we recommend
the Senior Procurement Executives for the Department of Energy and the National Nuclear
Security Administration:

      • Ensure that contracting officers fully implement safeguards regarding contractor
        responsibility determinations, to include:

             Verifying that contractors have a current self certification in the SAM database;
              and

             Fully documenting all responsibility determinations in the official contract files.

MANAGEMENT REACTION

Department and NNSA management concurred with the report's recommendations. The Office
of Headquarters Procurement Services agreed to take the lead on conducting training on the
importance of "Contractor Responsibility Determinations" along with associated policies,
regulations, processes and procedures. It also agreed to modify the STRIPES solicitation/award
checklist, to include retaining supportive documentation within STRIPES and devising an
automated process for ensuring responsibility determinations adherence.

NNSA noted that it will reinforce existing policies and procedures through real-time training
during the next Procurement Excellence Training session and also provide written refresher
notices to further reinforce requirements, procedures and controls related to the verification of
contractor self-certifications. In addition, NNSA agrees that the Senior Procurement Executive
should reinforce the policies and procedures to ensure staff follows internal controls, including
effectively maintaining documentation supporting the contracting officers' responsibility
determination. Finally, NNSA suggested that it should be clarified that the Contracting Officer's
signing of a contract constitutes a determination that the prospective contractor is "responsible"
with respect to that contract.

AUDITOR COMMENTS

Management's corrective actions, planned and taken, are responsive to our recommendations.
As to the area in which NNSA management expressed concern, we clarified our report to
indicate that the issues we noted with regard to determinations of responsibility applied to the
required documentation and reports that supported a determination of responsibility by the
contracting officer. Management's comments are included in Attachment 4.

Attachments

cc:    Deputy Secretary
       Chief of Staff
       Director, Office of Management




                                                 6
                                                                                                     Attachment 1


                      Detailed Breakout, by Office, of the Results of Our Audit


                         Review of Contractor Representations and Certifications
                                    Number of Not Registered               Awards Made                  Expired
                                    Contracts in ORCA                      Prior to ORCA                ORCAs
                                    Reviewed                               Being Completed
Headquarters
Procurement
  Number of Contractors                  124                  5                         5                    4
    Number of Contracts                  195                  6                        12                    4

Albuquerque
Procurement
  Number of Contractors                  123                  2                        --                    --
    Number of Contracts                  218                  3                        --                    --

                                     Review of Official Contract Files
                                    Number of No Documents Missing      Missing                         Missing
                                    Contracts Supporting a        CCR   EPLS                            ORCA
                                    Reviewed    Responsibility Database Search                          Database
                                                Determination Search                                    Search
Headquarters
Procurement
Number of Contract Files                 25                   9                  9            13             17

Albuquerque
Procurement
Number of Contract Files                 24 2                 --                 1             1             6




2
 We had selected a sample of 25 official contract files to review at the National Nuclear Security Administration
Office of Acquisition Management in the Albuquerque Complex. However, Albuquerque Procurement officials
were unable to locate one of the contract files selected for review. Thus, we were only able to physically review 24
official contract files.



                                                         7
                                                                                   Attachment 2


                      OBJECTIVE, SCOPE AND METHODOLOGY

OBJECTIVE

The objective of our audit was to determine whether the Department of Energy (Department) had
effective processes and procedures to prevent awarding contracts to contractors with tax
delinquencies and deemed non-responsible.

SCOPE

The scope of our audit included all procurement awards made by the Department's Office of
Headquarters Procurement Services (Headquarters Procurement) and the National Nuclear
Security Administration's (NNSA) Office of Acquisition Management in the Albuquerque
Complex (Albuquerque Procurement) to contractors from January 1, 2010 to January 30, 2012,
that were over the $150,000 simplified acquisition threshold. The audit was performed between
February 2012 and August 2013, at Headquarters Procurement and Albuquerque Procurement.

METHODOLOGY

To accomplish the objective, we:

   •   Reviewed Federal laws and regulations, including the Federal Acquisition Regulation
       (FAR), Presidential Memoranda, Office of Management and Budget Memoranda and
       Internal Revenue Service tax codes.

   •   Reviewed Headquarters Procurement and Albuquerque Procurement policies, procedures
       and guidance, including the Department Acquisition Regulations and Acquisition Guide.

   •   Determined the status of the proposed Contracting and Tax Accountability Act of 2011.

   •   Interviewed key personnel within Headquarters Procurement and NNSA Office of
       Acquisition Management located in Washington, DC and Albuquerque, New Mexico,
       respectively.

   •   Reviewed all 195 procurement awards made by Headquarters Procurement and 218
       procurement awards made by Albuquerque Procurement to contractors from January 1,
       2010 to January 30, 2012, that were over the $150,000 simplified acquisition threshold,
       to include:

           A review of the contractor's self certifications on the Central Contractor
            Registration (CCR) for contractors responses to Federal debt obligations; and

           A test of controls to determine whether contracting officers reviewed contractors'
            online certification regarding FAR 52.209-5 clause on "Responsibility Matters"
            and whether contractors registered in CCR prior to contract awards.




                                               8
                                                                    Attachment 2 (continued)



•   Judgmentally selected 50 contracts and reviewed their contract correspondence files for
    evidence that FAR 9 standards were met. Specifically, we sought documentation to
    support a determination of contractor responsibility, to include evidence the contractor
    registered in CCR and was not listed on the Excluded Parties List System.

•   Compared the listing of Headquarters Procurement and Albuquerque Procurement
    contractors to the Excluded Parties List System to determine if any debarred or
    suspended contractors received contract awards from the Department.

Due to the restrictions of the Internal Revenue Code 6103, Confidentiality and Disclosure of
Returns and Return Information, which protects the disclosure of tax returns and return
information, we were unable to query the Internal Revenue Service database to identify any
Department and NNSA tax delinquent contractors.

We conducted this performance audit in accordance with generally accepted Government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objective. Because our
review was limited, it would not necessarily have disclosed all internal control deficiencies
that may have existed at the time of our audit. We also assessed performance measures in
accordance with the Government Performance and Results Modernization Act of 2010 and
found that the Department has no performance measures that are relevant to the audit
objective. We assessed the reliability of computerized data because we planned to rely upon
it to accomplish our audit objective. However, we determined that, in a number of instances,
data was missing. Accordingly, we made a recommendation to correct this deficiency.

Management waived an exit conference.




                                            9
                                                                                   Attachment 3


                                    RELATED REPORTS

Office of Inspector General

   •   Audit Report on Non-Facility Contractor Prior Performance (DOE/IG-0857, October
       2011). This report disclosed that the Department of Energy (Department) had not always
       considered prior contractor performance nor completed contractor performance
       assessments in a timely manner for non-facility contracts and financial assistance awards.
       For example, the Department could not demonstrate that it had evaluated contractor prior
       performance before making 20 percent of the contracts and financial assistance awards
       reviewed by the Inspector General. Pre-award evaluations of a prospective contractor's
       prior performance and reviews of the Excluded Parties List System were not always
       conducted primarily because procurement officials and/or contracting personnel did not
       follow or apply Federal and Departmental requirements and procedures. Additionally,
       Department officials stated that post award evaluations of contractor performance were
       often not performed because contracting officer's representatives did not place sufficient
       emphasis on completing this requirement.


U.S. Government Accountability Office

   •   Testimony on Tax Compliance: Thousands of Federal Contractors Abuse the Federal
       Tax System (GAO-07-742T, April 2007). The U.S. Government Accountability Office
       (GAO) has periodically reported on high-risk Federal programs that are vulnerable to
       fraud, waste, and abuse. Two such high-risk areas are managing Federal contracts more
       effectively and assessing the efficiency and effectiveness of Federal tax administration.
       Weaknesses in the tax area continue to expose the Federal government to significant
       losses of tax revenue and increase the burden on compliant taxpayers to fund government
       activities. Previous GAO audits and related investigations have reported that thousands
       of Federal contractors had substantial amounts of unpaid Federal taxes. Specifically,
       about 27,000 Department of Defense contractors, 33,000 civilian agency contractors, and
       3,800 GSA contractors owed about $3 billion, $3.3 billion, and $1.4 billion in unpaid
       taxes, respectively.




                                               10
                      Attachment 4


MANAGEMENT COMMENTS




        11
     Attachment 4 (continued)




12
     Attachment 4 (continued)




13
     Attachment 4 (continued)




14
                                                                    IG Report No. OAS-M-13-07



                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if applicable to you:

     1. What additional background information about the selection, scheduling, scope, or
        procedures of the audit or inspection would have been helpful to the reader in
        understanding this report?

     2. What additional information related to findings and recommendations could have been
        included in the report to assist management in implementing corrective actions?

     3. What format, stylistic, or organizational changes might have made this report's overall
        message more clear to the reader?

     4. What additional actions could the Office of Inspector General have taken on the issues
        discussed in this report that would have been helpful?

     5. Please include your name and telephone number so that we may contact you should we
        have any questions about your comments.

Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations


If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page
                                    http://energy.gov/ig

  Your comments would be appreciated and can be provided on the Customer Response Form
                                 attached to the report.
